   February 19, 2004




Financial Management
Defense Threat Reduction Agency
Relocation Costs
(D-2004-053)




              Department of Defense
          Office of the Inspector General
Quality                Integrity      Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DTRA                  Defense Threat Reduction Agency
DTSA                  Defense Technology Security Administration
NCR                   National Capital Region
OIG DoD               Office of the Inspector General of the Department of Defense
SCI                   Sensitive Compartmented Information
SPAD                  Space Policy and Acquisition Division
WHS                   Washington Headquarters Services
           Office of the Inspector General of the Department of Defense
Report No. D-2004-053                                                               February 19, 2004
   (Project No. D2002CG-0193)

               Defense Threat Reduction Agency Relocation Costs

                                      Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers
involved with managing space should read this report because it addresses congressional
restrictions on organizational relocation costs in the National Capital Region.

Background. On July 10, 2002, the Defense Hotline received three allegations
forwarded by the General Accounting Office. The primary allegation was that the
Defense Technology Security Administration, which was a component of the Defense
Threat Reduction Agency, violated the Antideficiency Act by exceeding a
congressionally mandated cap on moving expenses within the National Capital Region.
The Washington Headquarters Service is responsible for office space management within
the National Capital Region.

Allegations. The allegation states that the Defense Technology Security Administration
exceeded the $900,000 budgetary cap imposed by the National Defense Authorization
Act* during its move in July 2001 from 400 Army Navy Drive, Arlington, Virginia, to
2850 Eisenhower Avenue, Alexandria, Virginia. By exceeding the cap, the Defense
Technology Security Administration violated the Antideficiency Act (section 1341,
title 31, United States Code). Another allegation was that the Defense Technology
Security Administration obtained sensitive compartmented information clearances for
personnel who did not need such access, resulting in excessive costs and a potential
security risk. The final allegation was that furniture, partitions, classified safes, and file
cabinets were thrown away, excessed, or abandoned to avoid moving costs and replaced
by items from funds not affected by the cap and, therefore, circumvented the budgetary
constraint that Congress imposed. Also, the new facilities were not structurally capable
of supporting the weight of the safes.

Results. The Defense Threat Reduction Agency complied with the intent of the
Congressional reporting requirement on moving costs but needed to improve
administrative controls over the processing of requests for security clearances. Although
the costs of the Defense Threat Reduction Agency move exceeded the $500,000 cap as
stated in the FY 2001 Defense Appropriation Act, we concluded that the Defense Threat
Reduction Agency had sufficiently complied with the requirements for a waiver. Section
8021 of the FY 2001 Defense Appropriations Act permits the Secretary of Defense to
waive the cap by certifying that the move was in the best interest of the Government and
by providing notice about the move to Congress. Improvements were needed, however,
in the way that Congress was notified of the waiver decision. See finding A for details of
the results and recommendations.


* We did not find such a restriction in the Defense Authorization Act, but we did find a recurring $500,000
  cap in the Defense Appropriation Act. Our review focused on whether the Defense Threat Reduction
  Agency exceeded the Defense Appropriations Act cap.
The Defense Threat Reduction Agency had the appropriate justifications for providing
sensitive compartmented information clearances for its personnel and was in compliance
with DoD Manual 5105.21-M-1, “Sensitive Compartmented Information Administrative
Security Manual,” August 1998, but had not complied with Code of Federal Regulations,
Title 5, Part 732, “National Security Positions,” (2003) because the designated position
sensitivity levels in the position descriptions did not always support the security
clearance level given the employee. See finding B for details of the results and
recommendations.

The Defense Threat Reduction Agency reduced the number of safes from 205 to 33. The
reduction was, however, the result of “house-cleaning,” in which it was determined that
the safes were being used to store unclassified information, such as proprietary data, as
well as unneeded duplicate copies of classified documents. See Appendix B for a
discussion of the allegations and our conclusions.

Independent Review of one of the Allegations. In accordance with a longstanding
requirement for additional space at 400 Army Navy Drive, the current tenant of the
building, Office of the Inspector General of the Department of Defense, was given first
offer for the vacant space. The Office of the Inspector General of the Department of
Defense accepted the space “as is” and took possession of the furniture that the Defense
Technology Security Administration left in the vacated space. Therefore, a
knowledgeable third party could question the independence of the Office of the Inspector
General of the Department of Defense auditors in addressing issues related to the
furniture. For that reason, we requested that an independent third party review the part of
the allegation that addresses the disposition of the furniture, partitions, file cabinets, and
safes. On November 13, 2003, the independent third party advised us that they had
concluded their review of our audit work pertaining to the furniture issue and agreed with
our assessments and conclusions.

Management Comments and Audit Response. Comments received from the Deputy
Director, Defense Threat Reduction Agency; and the Deputy Under Secretary of Defense
Technology Security Policy and Counterproliferation were responsive. Washington
Headquarters Services agreed to provide detailed guidance on what should be considered
when trying to determine if the moving cap will be exceeded but did not agree with
asking congress whether the reporting requirements on moving costs needed revision.
We believe the Department should initiate a dialogue with congress on the 13-year-old
reporting requirement on moving costs. We request that Washington Headquarters
Services reconsider its position and provide additional comments by March 19, 2004.
The Deputy Under Secretary of Defense Technology Security Policy, responding on
behalf of the Defense Technology Security Administration, agreed to improve controls
over security clearances. The Deputy Director, Defense Threat Reduction Agency stated
that the agency has strengthened its administration of the management of position
sensitivity designations for its personnel and no longer processes requests for security
clearances without an attached conforming Optional Form 8 and Position Description.
See the Finding section of the report for a discussion of management comments and the
Management Comments section for the full text of management comments.




                                              ii
Table of Contents

Executive Summary                                                        i


Background                                                               1


Objectives                                                               2


Findings
     A. Compliance with the Defense Appropriation Act                    3
     B. Defense Threat Reduction Agency Security Clearance Procedures    8

Appendixes
     A.    Scope, Methodology, and Prior Coverage                       10
     B     Summary of Allegations and Audit Results                     12
     C.    Secretary of Defense Memorandum                              18
     D.    Director, Defense Threat Reduction Agency Memorandum         19
     E.    Under Secretary of Defense Memorandum                        21
     F.    Report Distribution                                          23

Management Comments
     Washington Headquarters Services                                   25
     Defense Threat Reduction Agency                                    26
     Defense Technology Security Administration                         27
Background
        On July 10, 2002, the Defense Hotline received three allegations that had been
        forwarded by the General Accounting Office. The primary allegation was that the
        Defense Technology Security Administration (DTSA), which at the time, was a
        component of the Defense Threat Reduction Agency (DTRA), violated the
        Antideficiency Act by exceeding a congressionally mandated cap on moving
        expenses within the National Capital Region (NCR).

        Allegations. The allegations stated that DTSA exceeded the $900,000 budgetary
        cap imposed by the National Defense Authorization Act* during its move from
        400 Army Navy Drive in Arlington, Virginia, (Arlington) to 2850 Eisenhower
        Avenue in Alexandria, Virginia, (Alexandria). By exceeding the cap, DTRA
        violated the Antideficiency Act, section 1341, title 31, United States Code. The
        complainant also alleged that furniture, partitions, classified safes, and file
        cabinets were thrown away, excessed, or abandoned in order to avoid moving
        costs and with the intent of replacing those items from funds not affected by the
        cap, which circumvented the budgetary constraint imposed by Congress. The
        complainant also stated that the new facility was not structurally capable of
        supporting the weight of the safes and that DTSA obtained sensitive
        compartmented information (SCI) clearances for employees who did not need
        such access, which resulted in excessive costs and a potential security risk. (See
        Appendix B for a detailed discussion of the allegations and our conclusions.)

        Defense Threat Reduction Agency. DTRA was established October 1, 1998, as
        a joint service defense agency tasked with safeguarding America and its allies
        from weapons of mass destruction by reducing the present threat and preparing
        for future threats. DTRA was created by merging elements of the Office of the
        Secretary of Defense, DTSA, the Defense Special Weapons Agency, and the
        On-Site Inspection Agency. DTRA reports to the Assistant to the Secretary of
        Defense (Nuclear and Chemical and Biological Defense Programs). DTRA has
        an authorized staff of 2,141 military and civilian personnel. The FY 2003 budget
        for DTRA was $2.6 billion. When DTSA was merged into DTRA, the
        Directorate was named the Technology Security Directorate. Subsequently, on
        August 31, 2001, DTSA was re-established as a separate agency and reports to
        the Under Secretary of Defense for Policy.

        Antideficiency Act. DoD Regulation 7000.14-R, “Financial Management
        Regulation,” volume 14, “Administrative Control of Funds and Antideficiency
        Act Violations,” August 1995, requires that DoD components establish and
        maintain effective controls over appropriations and other funds. DoD officials are
        precluded from creating or authorizing any obligation or making any expenditure
        beyond the amount permitted under statutory limitations that will either modify or
        restrict availability of funds. When a statutory restriction on the use of an
        appropriation or fund is exceeded, a potential exists for violation of section
        1341(a)(1)(A), title 31, United States Code.

* We did not find such a restriction in the Defense Authorization Act, but we did find a recurring $500,000
  cap in the Defense Appropriations Act. Our review focused on whether the DTRA exceeded the Defense
  Appropriations cap.



                                                    1
    Purpose of Move. As part of an effort to strengthen the DoD technology security
    and export control mission, the Deputy Secretary of Defense authorized a major
    increase in personnel resources for the Technology Security Directorate of
    DTRA. Prior to the increase in personnel, the Technology Security Directorate of
    DTRA was housed at two locations in Alexandria and Arlington, Virginia. The
    space in Arlington could not accommodate the additional personnel. DTRA
    determined that in order to accommodate the additional personnel, the entire
    directorate should be housed in one location. Therefore, DTRA decided to move
    the Technology Security Directorate to its Alexandria location. At the time of the
    move, DTRA had 146 personnel located at the Arlington site. The actual move
    began on July 9, 2001, and was completed on July 23, 2001.


Objectives
    Our overall audit objective was to determine whether DTRA either exceeded or
    circumvented the congressionally mandated cap on relocation costs. See
    Appendix A for a discussion of the scope, methodology, and prior coverage
    related to the objectives.




                                        2
           A. Compliance with the Defense
              Appropriations Act
           Clearer guidance from Washington Headquarters Services (WHS) is
           needed to ensure that DTRA and other DoD agencies comply with
           Defense Appropriations Act recurring restrictions on NCR moving costs.
           Since the early 1990s, Defense Appropriations Acts have contained
           funding restrictions on appropriated funds that can be spent by agencies
           on moves within the NCR. However, WHS has not defined what costs
           need to be included when determining whether the funding restrictions
           have been exceeded. As a result, there is the potential that determinations
           on whether the threshold has or will be exceeded will not be made on a
           uniform basis. Exceeding the threshold without the necessary waiver from
           the Secretary of Defense can result in a violation of the Antideficiency
           Act. Additionally, WHS needs to request that the House and Senate
           Appropriations Committees review these recurring provisions to
           determine if the restrictions are still needed and are set at the appropriate
           level. (See Appendix B for a discussion of the allegations and our
           conclusions.)


Restrictions on NCR Moving Costs
    Since 1991, Congress has imposed the following restriction in each of the
    Defense Appropriations Acts:
               No more than $500,000 [threshold established at $50,000 for FY 1991
               through FY 1996] of the funds appropriated or made available in this
               Act shall be used during a single fiscal year for any single relocation of
               an organization, unit, activity or function of the Department of Defense
               into or within the National Capital Region: Provided, that the
               Secretary of Defense may waive this restriction on a case-by-case basis
               by certifying in writing to the congressional Defense committees that
               such a relocation is required in the best interest of the Government.

    To determine whether the threshold has or will be exceeded, Defense agencies
    need to develop an estimate of NCR moving costs and track moving expenditures
    to ensure that the restrictions have not been exceeded. The Secretary of Defense
    may waive the restriction if the Secretary determines that the move is in the best
    interest of the Government. Exceeding the threshold without the necessary
    waiver from the Secretary can result in a violation of the Antideficiency Act.

    Table 1 shows that our estimated cost of the DTSA move, about $2.9 million, did
    exceed the $500,000 per fiscal year cap imposed by the Appropriations Act. All
    of the costs were incurred between September 11, 2000, and September 30, 2001,
    making DTSA subject to the restriction in the FY 2000 and FY 2001 Defense
    Appropriations Act. DTRA used funds from its appropriations to pay for the
    moving costs. DTRA did not fully agree with our costing methodology and stated
    that it believed the costs of its personnel should be excluded and that other costs


                                              3
involving improvements to the new buildings should have been prorated based on
the number of DTSA personnel moving into the new building compared with the
total DTSA staff. WHS obtained legal advice from the Office of General Counsel
and stated that it believed that only the cost to move the organization and the cost
to prepare the space should be considered when determining whether the
$500,000 had been exceeded. That would exclude costs for the acquisition of
“goods and services,” such as rent, and items that the tenant agency decided to
replace or upgrade, such as furniture, computers, telephone instruments, and
network equipment such as routers and servers. We asked WHS space
management personnel to examine our cost estimate and determine which items
should have been excluded when determining whether the cap had been exceeded
based on its criteria. The WHS estimate is listed in Table 1. Because there is no
conclusive guidance on what costs should be included when determining whether
the thresholds have been exceeded, we could not determine which estimate was
correct. However, although the WHS cost estimate of $933,523 was much lower
than ours, both estimates showed that moving costs exceeded the $500,000 cap.




                                     4
                           Table 1. Estimated Cost of DTSA Move from
                            Arlington, Virginia, to Alexandria, Virginia


                                                          Audit             WHS
   Description of Costs                                  Estimate          Estimate
   Tenant Space Modification:
      Design of new building                             $ 88,427          $ 88,427
      Construction                                        436,553           436,553
      In-house labor                                       15,145
   Information Systems:
      Telephone service initiation                          6,500
      Wiring for information systems                      367,394          367,394
      Fast track charge (surcharge to
         Department of Interior for contracting            11,801
         services)
      Fiber Optic cabling                                  25,949           25,949
      Telephone infrastructure                             83,649
      Computer consulting services                        285,155
      In-house labor                                       63,425
   Furniture:
      Planning                                             23,279
      Purchase and installation                           910,071
      In-house labor
         acquisition and installation                       5,048
   Security System:
      Installation                                        100,000
      In-house labor for security                          40,519
   Shipping:
      Computers, 33 safes and other items
         to new building in Alexandria                     13,300           13,300
      Boxes                                                 1,900            1,900
      Shipping 172 excessed safes to Defense
         Reutilization and Marketing Office,
         Richmond, Virginia                                 5,980
      In-house labor for shipping                          10,421
   Staff Expenses:
      Cost for packing and unpacking office
         items                                            359,932

          Total                                        $2,854,448          $933,523




Table 2 shows the appropriations used for the cost of moving based upon our
estimated cost.




                                          5
                 Table 2. Appropriations Used for the DTRA Move from
                       Arlington, Virginia, to Alexandria, Virginia

     Defense Agencies Appropriation                                        Amount
     FY 2000 Operation and Maintenance                                 $    37,319
     FY 2001 Operation and Maintenance                                  2,411,985
     FY 2001 Procurement                                                   405,144
      Total                                                            $2,854,448




Reporting Requirements
    DoD Instruction 5305.5, “Space Management Procedures, National Capital
    Region,” June 14, 1999, applies to all DoD Components in the NCR.
    Paragraph 5.2.1.2 of that instruction requires Defense agencies to submit a
    “$500,000 Move Certification” to WHS as part of a request to relocate into or
    within the NCR. The “$500,000 Move Certification” is intended to serve as a
    control to ensure that the Secretary of Defense waives the Appropriations Act
    restrictions, if warranted.

    DoD Instruction 5305.5 does not clearly define what costs should be included
    when determining whether NCR moving costs will exceed the congressional cap.
    As discussed in Appendix B, differences in interpretation on what costs to include
    may result in significant differences in moving cost estimates. A legal advisor to
    the WHS told us that Congress has given no specific guidance on what cost items
    to consider when developing the cost estimates and has never made any inquiries
    on compliance with the fund restrictions.

    WHS needs to ask Congress to review section 8020 of the FY 2004 Defense
    Appropriations Act to determine if there is still a valid requirement for tracking
    and justifying moving costs within the NCR and if the threshold is set at the
    appropriate level. If Congress determines that this is still a valid requirement,
    WHS needs to establish additional guidance on what cost elements should be
    included in determining whether the cap has been exceeded so that determinations
    are the result of a standard methodology.




                                        6
Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Director, Washington Headquarters Services:

           1. Request that the House and Senate Appropriation Committees
    review section 8020 of the FY 2004 Defense Appropriation Act to determine
    whether the reporting requirement is still valid and the moving cost
    threshold is set at an appropriate level.

    Management Comments. The Director, WHS did not concur and stated that it
    was the Department’s position that current reporting requirements should be
    retained at this time.

    Audit Response. The cap on moving expenses within the NCR has been a
    continuing provision of the Defense Appropriation Act since FY 1991, yet a legal
    representative from the Office of General Counsel told us that Congress has never
    made any inquiries pertaining to the provision. Even small moves can easily
    exceed the established threshold. The threshold as established creates a burden
    on the Department that Congress may determine is no longer required. We
    request that WHS reconsider its position on the recommendation and provide
    comments on the final report.

            2. Revise DoD Instruction 5305.5, “Space Management Procedures,
    National Capital Region,” June 14, 1999, to include detailed guidance on
    what should be considered when determining whether the cap in section 8020
    of the FY 2004 Appropriation Act has been or will be exceeded, if the House
    and Senate Appropriation Committees determine that the reporting
    requirement of section 8020 of the FY 2004 Defense Appropriation Act is still
    a valid requirement.

    Management Comments. The Director, WHS concurred and stated that DoD
    Instruction 5305.5 is currently under revision and will include explicit guidance
    on what costs must be included in calculating compliance with the cap. See the
    Management Comments section for full text of WHS comments.




                                         7
            B. Defense Threat Reduction Agency
            Security Clearance Procedures
            DTRA did not evaluate position descriptions for its DTSA staff as
            required by title 5, Code of Federal Regulations, Section 732, “National
            Security Positions” (2003). As a result, the decision by DTRA to grant
            SCI clearances to its DTSA staff was not supported by the position
            description. Only five of the position descriptions for 45 employees who
            were granted SCI clearances from February 10, 2001, through July 31,
            2002, indicated that a security clearance beyond the secret level was
            required. During August through September 2001, the DTRA security
            manager informed DTRA division chiefs that they needed to review the
            position descriptions under their control to ensure that the positions
            reflected the proper position sensitivity. However, no procedures have
            been implemented to correct the deficiency. (See Appendix B for a
            discussion of the allegations and our conclusions)


Position Sensitivity Requirements
     Title 5, C.F.R. Section 732 (2003), requires the head of each agency to designate
     any positions within the agency that could bring about, by virtue of the nature of
     the position, a material adverse effect on national security of three sensitivity
     levels, Special-Sensitive, Critical-Sensitive, or Noncritical-Sensitive. The
     sensitivity levels are required to be identified on the Office of Personnel
     Management Form 8, “Position Description.”

     Security records show that 56 of the DTSA staff were granted SCI clearances
     from February 10, 2001, through July 31, 2002. We examined position
     descriptions for 45 of the 56 staff-members; 11 of the position descriptions were
     unavailable because of employee departures or other reasons. Of the 45 position
     descriptions examined, 5 were correctly prepared (4 military personnel and
     1 civilian employee). Seven of the 45 position descriptions had the correct
     position sensitivity designations for an SCI clearance but the position description
     did not indicate that an SCI clearance was required. The remaining 33 positions
     had erroneous position sensitivity designations.

     Although the DTRA security officer and his staff requested that DTRA
     management determine the sensitivity for each position back in 2001, no
     procedures have been implemented to correct the deficiency. On August 31,
     2001, the Deputy Secretary of Defense reestablished DTSA as a separate agency
     from DTRA. Accordingly, DTSA needs to take the appropriate corrective action
     rather than the DTRA. DTSA needs to review the position sensitivity level
     designated on Office of Personnel Management Form 8 and ensure that the
     position levels are appropriate and in accordance with 5 C.F.R. Section 732
     (2003). Additionally, DTSA needs to ensure that position sensitivity levels
     support the level of security clearance provided to DTSA staff.




                                          8
Recommendations and Management Comments
    B. We recommend that the Director, Defense Technology Security
    Administration:

            1. Update position sensitivity levels for its personnel as required by
    Title 5, Code of Federal Regulations, Section 732, “National Security
    Position” (2003), to ensure that position sensitivity levels are appropriate.

           2. Verify that the position sensitivity levels designated on Office of
    Personnel Management Form 8 for each staff member supports the level of
    security clearance granted.

    Management Comments. The Deputy Under Secretary of Defense Technology
    Security Policy and Counterproliferation, responding on behalf of the DTSA,
    stated that she concurred with both recommendations. DTSA will revise its
    position descriptions to properly reflect security clearance requirements and
    justifications. Corrective action is expected to be completed within six months or
    less. See the Management Comments section for the full text of the DTSA
    comments.




                                        9
Appendix A. Scope and Methodology
   We researched applicable laws to congressional caps on moving expenses in both
   Authorization Acts and Appropriation Acts for FY 1999 through FY 2001 that
   were applicable to the DTRA. We interviewed the complainant, the DTRA
   Inspector General, the DTRA facilities manager, and DTRA security personnel.
   We also interviewed staff at the Office of the Under Secretary of Defense
   (Administration and Management), Defense Hotline, General Accounting Office
   Hotline, WHS space administration personnel responsible for oversight of the
   move, legal advisors to WHS, and the administrative staff of the Director of
   Administration and Management. We interviewed an agent with the Deputy
   Inspector General for Investigations of the Department of Defense who had
   completed a related review. We validated DTRA prepared cost estimates of the
   move. We inspected the new facility and validated inventories of safe containers.
   We consulted with legal counsel on whether a potential violation of the
   Antideficiency Act had occurred.

   In accordance with a longstanding requirement for additional space at 400 Army
   Navy Drive, the current tenant of the building, OIG DoD, was given first offer for
   the vacant space. The OIG DoD accepted the space “as is” and took possession
   of the furniture that DTSA left in the vacated space. Therefore, a knowledgeable
   third party could question the independence of the OIG DoD auditors in
   addressing issues related to the furniture. For that reason, we requested that an
   independent third party review the part of the allegation that addresses DTSA
   disposition of the furniture, partitions, file cabinets, and safes. On
   November 13, 2003, the independent third party advised us that they had
   concluded their review of our audit work pertaining to the furniture issue and
   agreed with the assessments and the conclusions that we had reached.

   We performed this audit from July 2002 through August 2003 in accordance with
   generally accepted government auditing standards. We did not review the
   management control program.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD Financial Management high-risk area.




                                       10
Prior Coverage
    On July 15, 2001, the Inspector General, DTRA received an allegation on
    improper disposal of classified information by DTRA personnel. That complaint
    was referred to the DoD Deputy Inspector General for Investigations for review.
    The evidence revealed that the disposed documents were duplicates of documents
    retained by DTSA and other items no longer needed in carrying out the DTSA
    mission. The DoD Deputy Inspector General for Investigations did not
    substantiate the allegation. There were no audits or evaluations relating to this
    subject during the last 5 years.




                                       11
Appendix B. Summary of Allegations and Audit
            Results
           A summary of the allegations and our audit results are discussed below.

           Allegation 1. DTRA exceeded or circumvented a $900,000 cap on relocation
           costs contained in the FY 2001 Defense Authorization Act, and by doing so,
           violated the Antideficiency Act1.

           Audit Results. The allegation was partially substantiated. However, the adverse
           effects were not material. Although the cost of the DTRA move did exceed the
           $500,000 congressional cap on relocation costs, the congressional Defense
           committees were notified that the relocation was in the best interest of the
           Government by both the Director of DTRA and the Under Secretary of Defense
           (Acquisition, Technology, and Logistics), who responded on behalf of the
           Secretary of Defense.

                  Statutory Restriction. Section 8022 of the Defense Appropriations Act
           for FY 2000 and section 8021 for FY 2001 contains the following provision:
                        No more than $500,000 of the funds appropriated or made available in
                        this Act shall be used during a single fiscal year for any single
                        relocation of an organization, unit, activity or function of the
                        Department of Defense into or within the National Capital Region:
                        Provided, That the Secretary of Defense may waive this restriction on a
                        case-by-case basis by certifying in writing to the congressional Defense
                        committees that such a relocation is required in the best interest of the
                        Government.

                  The complainant was unable to provide any citation in the Defense
           Authorization Act that restricted moving expenses for DTSA and stated that he
           may have mistakenly cited the Authorization Act when he meant the
           Appropriations Act. Therefore, we based our determination on the guidance in
           the Defense Appropriations Act.

                   Notification to the Congress. Physical consolidation of the locations
           making up DTRA was proposed as an objective in DoD Reform Initiative
           Directive No. 35, “Location of the Defense Threat Reduction Agency
           Headquarters and Support Offices,” May 5, 1998. In the initiative, the Deputy
           Secretary of Defense concluded that, “Physical consolidation of the affected
           organizations and programs at one location will provide for greater focus and
           clearer identity for this important new Agency.” On January 7, 2000, the
           Secretary of Defense advised the appropriate Defense committees and
           subcommittees of the Senate and the House that he wanted to physically


1
    We did not find a restriction in the Defense Authorization Act, but we did find a $500,000 cap in the
    Defense Appropriations Act. Our review focused on whether the DTRA exceeded the Defense
    Appropriations Act cap.



                                                      12
           consolidate portions of DTRA2 and certified that the action was in the best
           interest of the Government (Appendix C). The Secretary’s letter and report was
           in response to the Conference Report Accompanying House Report 3616, “Strom
           Thurmond National Defense Authorization Act for Fiscal Year 1999,” H.R. Rep.
           No. 105-736, page 627, which requires that a report regarding the relocation of
           the agency be submitted. The Secretary advised the committees that DTRA was,
           at that time, split among five primary locations in the NCR and provided a plan to
           consolidate some of those offices to the headquarters complex at Fort Belvoir,
           Virginia, for security reasons. The plan states that the move would not include
           the Technology Security Directorate of DTRA, which was then located in
           Arlington and Alexandria.

                  On May 24, 2000, the Director, DTRA advised the same Defense
           committees and subcommittees (Appendix D) that because the Deputy Secretary
           of Defense had authorized a major increase in personnel for the Technology
           Security Directorate, and because the Deputy Secretary of Defense had previously
           expressed the desire that the entire directorate be housed in one location, DTRA
           decided to move all elements of the Technology Security Directorate to
           Alexandria. On June 15, 2001, the Under Secretary of Defense (Acquisition,
           Technology, and Logistics), responding on behalf of the Secretary of Defense to
           the House Government Reform Committee (Appendix E), affirmed that the DTSA
           move was in the best interest of the Government.

                    Conclusions on Violation of the Antideficiency Act. We concluded that
           the Secretary of Defense or the Director, Acquisition and Management3, not the
           Director, DTRA should have provided notification to the congressional Defense
           committees on the DTSA move. Additionally, the letter should have referenced
           section 8022 of the Appropriations Act and the DoD decision to waive the
           relocation cap. However, the May 2000 letters from the Director, DTRA
           informed the Defense committees that DTRA intended to move DTSA to
           Alexandria so that all of the DTSA components would be at a single location in
           order would accommodate the authorized increase in staff. The June 15, 2001,
           letter from the Under Secretary of Defense (Acquisition, Technology, and
           Logistics) to the House Government Reform Committee (Appendix E) confirms
           the Secretary of Defense’s knowledge of the move and concluded that the DTSA
           move would “enable it to meet a critical national security mission in the most
           effective manner.”

                  Controls over Reporting National Capital Region Moves to Congress.
           We attempted to determine why a formal notice on the DTSA move to Alexandria
           had not been given to Congress, as had been done for the first part of the DTRA
           move. The Space Policy and Acquisition Division (SPAD), Real Estate and

2
    On January 7, 2000, the Secretary of Defense advised the following committees of his determination that
    the first part of the DTRA move was in the best interests of the Government: Senate Committee on
    Armed Services; Senate Subcommittee on Defense, Committee on Appropriations; Senate Subcommittee
    on Military Construction, Committee on Appropriations; House Subcommittee on Defense, Committee
    on Appropriations; House Subcommittee on Military Construction, Committee on Appropriations; and
    the House Committee on Armed Services.
3
    On April 17, 2000, the Secretary of Defense delegated the authority and assigned the responsibility of
    relocations into the NCR under Section 8022 to the Director of Administration and Management.



                                                      13
Facilities Directorate, WHS, is responsible for the oversight and management of
administrative space occupied by DoD agencies and military departments in the
NCR. DoD Instruction 5305.5, “Space Management Procedures, National Capital
Region,” June 14, 1999, applies to all DoD Components in the NCR. Paragraph
5.2.1.2 of that instruction requires that Defense agencies submit a
“$500,000 Move Certification” to WHS as part of a request to relocate into or
within the NCR. The “$500,000 Move Certification” is intended to serve as a
control that will ensure that the Secretary of Defense waives the Appropriations
Act restrictions, if warranted. DTRA had not prepared the move certification as
required, but SPAD had prepared an estimate that the DTSA move would cost
about $2.1 million. The in-house estimate should have triggered a WHS request
for a waiver to the Secretary or his designee, but we were unable to find such a
waiver request. We spoke with the SPAD project manager responsible for
coordinating the DTSA move. He has retired from the Government and was
unable to recall why he had not prepared a request for a waiver. SPAD managers
were also unable to explain why the waiver request had not been prepared.

        Monitoring of National Capital Region Moving Costs. We met with
the Chief, NCR Projects Branch, SPAD, who told us that since the DTSA move,
his office has adopted new procedures to ensure that NCR moves costing more
than $500,000 would be readily detected and reported. The Deputy Director of
SPAD told us that SPAD has begun reeducating the staff on moving and
construction costs and emphasized that when the costs begin to approach the
$500,000 threshold, the staff is to immediately notify clients of the requirement
for a waiver from the Secretary of Defense. In a November 17, 2002,
memorandum “Land Acquisition and Leasing of Office Space in the United
States,” the Secretary of Defense emphasized the need for Defense Components
to provide the proper notice and required approval of NCR relocations expected
to cost more than $500,000.
           Additionally, effective immediately, no proposals for relocating into or
           within the Washington, DC, area that exceed $500,000 in relocation
           costs may be made public, in the manner discussed above, without
           approval by me or the Deputy Secretary. Requests for approval of such
           relocations shall be submitted to the Director, Washington
           Headquarters Services (WHS), who shall submit such requests for my
           approval, through USD (AT&L) [Under Secretary of Defense
           (Acquisition, Technology, and Logistics)]. All previously approved or
           announced relocations that have not occurred as of the date of this
           memorandum may not proceed until approved by me or the Deputy
           Secretary after review by the USD (AT&L).

         Legislative History. An attorney in the Office of General Counsel, which
serves as legal advisor to WHS on NCR moves, told us that the requirement for
capping NCR moving costs was originally added to the Appropriation Act during
the early 1990s. At that time, the cap for NCR moves was set at $50,000. The
restriction was made a recurring provision in subsequent Appropriation Acts, and
the cap was increased to $500,000 in FY 1997. The attorney told us that
Congress has never provided guidance on what costs to include when determining
whether the cap was exceeded and has never made any inquiries on NCR moving
costs within the Department.



                                        14
Allegation 2. DTRA obtained more Sensitive Compartmented Information (SCI)
level clearances for its command personnel than what was needed, resulting in
excessive costs and a potential security risk.

Audit Results. The allegation was partially substantiated. However, the adverse
effects were not material. The appropriate review process was not followed when
DTRA determined that it needed SCI clearances for the DTSA staff. The DTRA
granted 56 DTSA personnel (52 civilian and 4 military) SCI clearances from
February 10, 2001, through July 31, 2002. We examined position descriptions for
45 of the 56 staff-members; 11 of the position descriptions were unavailable
because of employee departures or other reasons. Of the 45 position descriptions
examined, only 5 were correctly prepared (4 military personnel and 1 civilian
employee). Title 5, C.F.R. Section 732.201 (2003), requires that agencies
designate position sensitivity for each of its position descriptions. The designated
position sensitivity is then used for determining the appropriate security clearance
for personnel in those positions. Although DTRA obtained more SCI level
clearances within DTSA than were annotated in positions descriptions, it did not
result in potential security risks. During August through September 2001, the
DTRA personnel security specialist informed DTRA division chiefs that they
needed to review the position descriptions under their control to ensure that the
positions reflected the proper position sensitivity. However, we found no
evidence that the position sensitivities for the DTSA staff had been re-evaluated.

        Access to Sensitive Compartmented Information. SCI is classified
information concerning or derived from intelligence sources, methods, or
analytical processes that requires special handling within formal access control
systems that the Director, Central Intelligence establishes. The disclosure of such
information has the potential for inestimable damage to the national security.
Access to SCI is to be based on the “need-to-know” principle and in accordance
with the Director of Central Intelligence Directive 6/4, “Personnel Security
Standards and Procedures Governing Eligibility for Access to Sensitive
Compartmented Information (SCI),” updated May 3, 2002. The directive
establishes the personnel security standards for investigation and evaluation for
access to SCI. The justification for an upgrade or clearance will specifically
identify the type of SCI data required, why the job cannot performed without SCI,
and how the information will be used, which are signed by the division chief and
the Security Directorate.

Title 5, C.F.R. Section 732 (2003), requires the head of each agency to designate
any positions within the agency that could bring about, by virtue of the nature of
the position, a material adverse effect on national security of three sensitivity
levels, Special-Sensitive, Critical-Sensitive, or Noncritical-Sensitive. The
sensitivity levels are required to be identified on the Office of Personnel
Management Form 8, “Position Description.”

        Procedures for Granting Sensitive Compartmented Information
Clearances. The DTRA security officer told us that DTRA followed the
guidance in DoD Manual 5105.21-M-1 “Sensitive Compartmented Information
Administrative Security Manual,” August 1998, which requires written
justification in the request for access that identifies the type of SCI data required,
why the job cannot be performed without SCI, and how the individual will use the


                                     15
information. DTRA required that its personnel use an internal form, DTRA
Form 10, “DTRA Security Clearance Form,” December 2001, to request the SCI
clearance. The request must be signed by the director or division chief who is at
least a General Schedule-15 level employee. In our opinion, DTRA Form 10
appeared to satisfy the requirements of DoD 5105.21-M-1. DTRA told us that
any increase in the number of SCI clearances were mission related and was not
related to the move. We found either a completed DTRA Form 10 or a
DD Form 1879, “Request for Personnel Security Investigation,” for each of the 56
personnel who had been granted SCI clearances, but the position sensitivity levels
for each of the position descriptions we reviewed did not indicate that an SCI
clearance was required for the position.

Costs for Sensitive Compartmented Information Clearances. To obtain an
SCI clearance, an appropriate background check must be performed with positive
results. The requesting agency pays for the cost of the background check. After
the background check is complete, the application is submitted directly to the
Defense Intelligence Agency for adjudication. The cost of the background
investigation is directly related to the type of investigation required and the
urgency in obtaining it. The requesting agency is not charged for the cost of
adjudication. Further, personnel who have obtained a Top Secret clearance and
who have a current background investigation (within the last 5 years) are
forwarded directly to the Defense Intelligence Agency for adjudication.

Using an Office of Personnel Management price list for background
investigations, we estimate that DTRA spent about $110,000 to obtain SCI
clearances for the DTSA staff. We identified the type of investigation performed
for each of the 56 personnel and multiplied the number of investigations by the
current price for the specified urgency. Our estimate may be slightly higher than
DTRA actually paid because some of the investigations were performed prior to
January 1, 2002, the effective date of the price list we used. The estimated cost of
$110,000 does not include the costs that the Defense Intelligence Agency incurred
for the adjudication process; those costs are not billed to the requesting agency.

Allegation 3. DTRA improperly disposed of or abandoned security containers
(safes), furniture partitions, and file cabinets during relocation, to circumvent the
budget restriction on moving costs and because the new facility could not support
the weight of the safes.

Audit Results. The allegation was unsubstantiated. When DTSA moved its
office space from Arlington to Alexandria, it moved 33 safes and safe contents,
office equipment such as computers and fax machines, and pre-packed employee
boxes. Although some furniture also moved to Alexandria, most of the furniture
in the Arlington office was modular furniture that would have required
disassembly before the move and reassembly at its destination. DTRA left the
modular furniture in the office spaces in Arlington, which was used by the new
tenants, the OIG DoD. DTRA sent 172 safes, determined to be excess, to the
Defense Reutilization and Marketing Office in Richmond, Virginia, for
disposition.

        Independent Review of Furniture Allegations. After DTSA moved
from its location in Arlington, components of the OIG DoD moved into the


                                     16
vacated space. Therefore, a knowledgeable third party could question the
independence of the OIG DoD auditors to address issues related to the furniture.
For that reason, we requested that an independent third party review the part of
the allegation that addresses DTSA disposition of the furniture, partitions, file
cabinets, and safes.

        Inventory Reduction of Safes. DTSA reduced the number of safes it had
before the move (205) to 33 safes. The DTRA facility manager told us that the
decision to reduce the number of safes was based on a business decision unrelated
to the cost of the move or to the weight of the safes. The security officer told us
that he was told that the existing safes were used for storing unclassified
documents, mostly proprietary information, and unneeded duplicate copies of
classified documents. As a result of a “house-cleaning,” DTSA determined that
the number of safes could be reduced and still accommodate the DTSA security
requirements. Additionally, the security officer told us that some of the older
safes were models with mechanical combination locks that were no longer
authorized for use by the General Services Administration. DoD
Regulation 5200.1-R, “Information Security Program,” January 1997, requires
that safes use combination locks that meet Federal Specification FF-L-2740.
Each replacement lock was expected to cost from $717 to $982 installed,
depending on the lock model selected. Although DoD has not established a firm
deadline for all locks to be replaced, agencies are required to replace any
defective lock or lock that has to be drilled with a lock that meets the Federal
specifications. The security officer stated that the lock requirement and memo
were used for discarding the older safes with non-complying locks. The security
officer was unable to provide how many of the excessed safes had the mechanical
combination locks.

        Ability of New Facility to Support Weight of Safes. According to
DTRA shipping documents, each empty safe weighed about 600 pounds. WHS
estimated that a full safe weighed about 850 pounds. WHS told us that the new
building had suspended floors that did not have the load bearing capability that a
building supported by beams would have. The DTRA facilities manager told us
that the new building would have supported the weight of all of the previously
owned safes, but weight would have been a factor when determining where to
locate the safes. As a result, the facilities manager could not guarantee that the
safes would be located where they were needed.

        Decision to Reduce the Number of Safes. Because the Secretary of
Defense had effectively waived the budget restriction on relocation and moving
costs and because paragraph C6.7.1.1 of DoD Regulation 5200.1-R encourages
retention of classified documents only when required for effective and efficient
operation of the organization or when required by law, we do not believe that
DTRA management acted improperly in its decision to reduce its safe inventories.




                                    17
    Appendix C. Secretary of Defense
                Memorandum*




*
    Similar letters were sent to other Defense Committees and Subcommittees in both the Senate and House of
    Representatives.


                                                     18
    Appendix D. Director, Defense Threat
                Reduction Agency Memorandum*




*
    Similar letters were sent to other Defense Committees and Subcommittees in both the Senate and House of
    Representatives.


                                                     19
20
Appendix E. Under Secretary of Defense
            Memorandum




                     21
22
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Assistant to the Secretary of Defense (Nuclear, Chemical, and Defense Programs)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Policy
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Washington Headquarters Service

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Naval Audit Service
Superintendent, Naval Postgraduate School

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Intelligence Agency
Director, Defense Contract Management Agency
Director, Defense Logistic Agency
Director, National Security Agency
Director, Defense Systems Management College
Director, Defense Technology Security Administration
Director, Defense Threat Reduction Agency
   Inspector General, Defense Threat Reduction Agency




                                            23
Non-Defense Federal Organization
Comptroller General, General Accounting Office
Director, Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, Committee on
  Government Reform
House Subcommittee on National Security, Emerging Threats, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and
  the Census, Committee on Government Reform




                                          24
Washington Headquarters Services Comments




                     25
Defense Threat Reduction Agency Comments




                     26
Defense Technology Security Administration
Comments




                      27
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

David K. Steensma
Henry F. Kleinknecht
Kent E. Shaw
George B. West
Richard O. Williams
Susann L. Cobb
